                                                                                   Federal Register / Vol. 77, No. 106 / Friday, June 1, 2012 / Notices                                          32645

                                                  gov/downloads/MedicalDevices/Device                     DATES:  Effective Date: These standards               and neglect in Medicaid-funded
                                                  RegulationandGuidance/Guidance                          are effective on June 1, 2012.                        facilities. A MFCU may also investigate
                                                  Documents/UCM080199.pdf or by                           FOR FURTHER INFORMATION CONTACT:                      and prosecute abuse and neglect in
                                                  sending an email request to                             Richard B. Stern, OIG Office of                       ‘‘board and care’’ facilities, such as
                                                  dsmica@fda.hhs.gov to receive an                        Evaluation and Inspections, (202) 619–                assisted living facilities, even if such
                                                  electronic copy of the document or send                 0480. Patrice S. Drew, Office of External             facilities do not receive Medicaid
                                                  a fax request to 301–847–8149 to receive                Affairs, (202) 619–1368.                              payments. Finally, 1903(q) and
                                                  a hard copy. Please use the document                                                                          regulations require that MFCUs be
                                                  number 159 to identify the guidance                     I. Background                                         composed of a team of attorneys,
                                                  you are requesting.                                        The mission of the MFCUs, as                       auditors, and investigators.
                                                                                                          established in Federal statute, is to                    Under section 1902(a)(61) of the Act,
                                                  III. Proposed Class II Device                           investigate and prosecute Medicaid                    as added by Public Law 103–66 § 13625
                                                  Exemptions                                              provider fraud and patient abuse and                  (1994), all States must operate MFCUs
                                                     FDA has received the following                       neglect. The States are responsible for               unless they demonstrate to the Secretary
                                                  petition requesting an exemption from                   operation of the MFCUs and receive                    of HHS that they can operate without a
                                                  premarket notification for a class II                   reimbursement for a percentage of their               Unit. Currently, 49 States and the
                                                  device: Richard Keller, on behalf of                    costs from the Federal Government.                    District of Columbia have established
                                                  Bruno Independent Living Aids, Inc.,                    Under section 1903(a)(6) of the Social                MFCUs and 1 State, North Dakota,
                                                  for wheelchair elevator devices                         Security Act (Act), States are                        operates without a MFCU after receiving
                                                  (commonly known as inclined platform                    reimbursed for 90 percent of their costs              permission from HHS in 1994. Under
                                                  lifts and vertical platform lifts),                     for the first 3 years of a MFCU’s                     section 1902(a)(61), States must operate
                                                  classified under 21 CFR 890.3930.                       operation and 75 percent for subsequent               a MFCU that effectively carries out the
                                                                                                          years. All MFCUs are currently                        functions and requirements described in
                                                  IV. Comments                                            reimbursed at 75 percent of the costs of              1903(q), as determined in accordance
                                                    Interested persons may submit to the                  operating a certified MFCU.                           with standards established by the
                                                  Division of Dockets Management (see                        OIG is delegated authority under                   Secretary of HHS. Consistent with this
                                                  ADDRESSES), either electronic or written                1903(q) and 1903(a)(6) of the Act to                  section, this notice establishes the
                                                  comments regarding this document. It is                 certify and annually recertify Units as               performance standards OIG will
                                                  only necessary to send one set of                       eligible for Federal Financial                        consider in determining whether State
                                                  comments. Identify comments with the                    Participation (FFP), and to reimburse                 MFCUs are effectively carrying out their
                                                  docket number found in brackets in the                  States for costs incurred in operating a              statutory functions under 1903(q).
                                                  heading of this document. Received                      MFCU. Through the certification and
                                                                                                                                                                II. OIG Development and Use of These
                                                  comments may be seen in the Division                    recertification process, OIG ensures that
                                                                                                                                                                Standards
                                                  of Dockets Management between 9 a.m.                    the Units meet the requirements for FFP
                                                  and 4 p.m., Monday through Friday.                      set forth in section 1903(q) of the Act                  These standards amend and update
                                                                                                          and in Federal regulations found at 42                performance standards that were
                                                    Dated: May 25, 2012.                                                                                        initially published in 1994 (59 FR
                                                                                                          CFR part 1007. The performance
                                                  Leslie Kux,                                             standards set forth in this guidance                  49080). The standards provide guidance
                                                  Assistant Commissioner for Policy.                      document constitute the standards that                to MFCUs regarding how OIG will
                                                  [FR Doc. 2012–13224 Filed 5–31–12; 8:45 am]             OIG applies in determining the                        exercise its discretion in assessing a
                                                  BILLING CODE 4160–01–P                                  effectiveness of State Units in carrying              Unit’s performance and, as such, do not
                                                                                                          out MFCU required functions. As part of               require OIG to use formal notice-and-
                                                                                                          the recertification process, OIG reviews              comment procedures. Nevertheless, on
                                                  DEPARTMENT OF HEALTH AND                                reports from the Units, obtains                       October 6, 2011, we published proposed
                                                  HUMAN SERVICES                                          information from other Federal and                    revisions to the 1994 performance
                                                                                                          State agencies, and conducts periodic                 standards (76 FR 62074) to invite
                                                  Office of Inspector General                             onsite reviews.                                       MFCUs and other interested parties to
                                                                                                             Under 1903(q), a MFCU must be a                    review and comment on our approach.
                                                  [Docket Number OIG–1204–N2]
                                                                                                          ‘‘single, identifiable entity of the State            We received seven sets of comments, all
                                                  Revision of Performance Standards for                   government’’ and be ‘‘separate and                    of which we have carefully considered.
                                                  State Medicaid Fraud Control Units                      distinct’’ from the State Medicaid                    In addition, we met with one
                                                                                                          agency. The Unit must be an office of                 commenter, the National Association of
                                                  AGENCY:  Office of Inspector General                    the State Attorney General’s office or                Medicaid Fraud Control Units (the
                                                  (OIG), Department of Health and Human                   another State government office with                  Association), which submitted extensive
                                                  Services (HHS).                                         statewide prosecutorial authority or                  comments on each of the standards. We
                                                  ACTION: Notice.                                         operate under a formal arrangement                    accepted many of the commenters’
                                                                                                          with the State Attorney General’s office.             suggestions and recommendations and
                                                  SUMMARY:   This notice sets forth OIG                   The MFCU must investigate and                         revised the standards accordingly.
                                                  guidance regarding standards OIG will                   prosecute Medicaid fraud cases,                          One topic raised in comments by the
                                                  apply in assessing the performance of                   according to the laws of the State in                 Association was the use of statistics in
                                                  State Medicaid Fraud Control Units                      which with MFCU operates. Federal                     assessing MFCU performance. Under
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                  (MFCU or Unit). These standards                         regulations also require MFCUs to enter               the 1994 standards, Standard 7 stated
                                                  replace and supersede standards                         into agreements with the State Medicaid               that ‘‘[a] Unit should have a process for
                                                  published on September 26, 1994 (59 FR                  agency to ensure the referral of                      monitoring the outcome of cases. In
                                                  49080). OIG will apply these standards                  suspected provider fraud cases.                       meeting this standard, the Unit’s
                                                  in certifying and recertifying each Unit                   Under 1903(q), a MFCU must also                    monitoring of the following case factors
                                                  and to determine if a Unit is effectively               have procedures for investigating and                 and outcomes will be considered
                                                  and efficiently carrying out its duties                 prosecuting (or referring for                         [including numbers of arrests,
                                                  and responsibilities.                                   prosecution) allegations of patient abuse             convictions, overpayments, and civil


                                             VerDate Mar<15>2010   16:42 May 31, 2012   Jkt 226001   PO 00000   Frm 00150   Fmt 4703   Sfmt 4703   E:\FR\FM\01JNN1.SGM   01JNN1
                                                  32646                            Federal Register / Vol. 77, No. 106 / Friday, June 1, 2012 / Notices

                                                  recoveries].’’ In the 2011 proposed                     analyzing MFCU operations and to                         A. The Unit employs the number of
                                                  revision to the standards, OIG proposed                 provide information to the public about               staff that is included in the Unit’s
                                                  that MFCUs design performance                           MFCU activities. In doing so, we                      budget estimate as approved by OIG.
                                                  management systems that include                         emphasize that OIG does not intend that                  B. The Unit employs a total number
                                                  performance goals and outcomes for                      MFCUs be evaluated solely on the basis                of professional staff that is
                                                  case- and non-case work. The                            of statistical information. MFCUs are                 commensurate with the State’s total
                                                  Association objected strongly to the                    subject to various legal authorities and              Medicaid program expenditures and
                                                  draft standard, both because the                        organizational constraints and,                       that enables the Unit to effectively
                                                  development of performance                              therefore, comparisons between two or                 investigate and prosecute (or refer for
                                                  management systems could be seen as a                   more MFCUs based on statistical                       prosecution) an appropriate volume of
                                                  new mandate for many MFCUs as well                      outcomes should be undertaken with                    case referrals and workload for both
                                                  as a perception that OIG was relying too                caution.                                              Medicaid fraud and patient abuse and
                                                  heavily on statistical measures for                        Consistent with OIG’s reliance on a                neglect.
                                                  assessing performance.                                  variety of information sources in                        C. The Unit employs an appropriate
                                                     We agree with the Association that an                assessing performance, the performance                mix and number of attorneys, auditors,
                                                  exclusive reliance on case outcomes in                  standards themselves are an important                 investigators, and other professional
                                                  evaluating performance is not                           oversight tool that aids OIG in assessing             staff that is both commensurate with the
                                                  appropriate for the Units. However, we                  information on each of the topic areas                State’s total Medicaid program
                                                  also believe that the 1994 version of                   covered by the standards. This                        expenditures and that allows the Unit to
                                                  Standard 7 did not provide OIG an                       information is important in recertifying              effectively investigate and prosecute (or
                                                  effective means to evaluate performance                 the MFCUs and in evaluating whether a                 refer for prosecution) an appropriate
                                                  without further guidance on how                         MFCU is operating effectively.                        volume of case referrals and workload
                                                  MFCUs would systematically monitor                         When OIG determines that a MFCU is                 for both Medicaid fraud and patient
                                                  outcomes. We have therefore eliminated                  deficient in meeting one or more                      abuse and neglect.
                                                  a separate standard for the monitoring of               standards, OIG will provide technical                    D. The Unit employs a number of
                                                  case outcomes and have combined                         assistance or make recommendations for                support staff in relation to its overall
                                                  elements of the proposed standard with                  improvement. Ultimately, a Unit that                  size that allows the Unit to operate
                                                  new Standard 7, ‘‘Maintaining Case                      continues to operate in an ineffective                effectively.
                                                  Information.’’                                          manner could be designated as a high-                    E. To the extent that a Unit maintains
                                                     While they are not included in these                 risk grantee and OIG may make a                       multiple office locations, such locations
                                                  standards, we continue to believe that                  separate determination regarding the                  are distributed throughout the State, and
                                                  MFCUs, as an effective practice, should                 Unit’s certification status under section             are adequately staffed, commensurate
                                                  consider developing management                          1903(q).                                              with the volume of case referrals and
                                                  systems or processes for monitoring and                    The revised standards, reflecting                  workload for each location.
                                                  measuring the outcome of cases, for the                 public comments, are set forth below.
                                                  purpose of improving performance. One                                                                         Performance Standard 3—Policies and
                                                                                                          These standards may be further revised                Procedures
                                                  way to accomplish this would be for
                                                                                                          in future years based on experience
                                                  MFCUs to monitor and measure the                                                                                 A Unit establishes written policies
                                                                                                          gained in the oversight of the Units.
                                                  timeliness of their handling of key                                                                           and procedures for its operations and
                                                  stages of the process or of similar types               III. Standards for Assessing MFCU                     ensures that staff are familiar with, and
                                                  of cases. For example, a MFCU could                     Performance                                           adhere to, policies and procedures. To
                                                  review and monitor the length of time                                                                         determine whether a Unit meets this
                                                                                                          Performance Standard 1—Compliance
                                                  between the receipt of a referral and                                                                         standard, OIG will consider the
                                                                                                          With Requirements
                                                  when the matter is accepted or declined                                                                       following performance indicators:
                                                  for investigation. Another approach                        A Unit conforms with all applicable                   A. The Unit has written guidelines or
                                                  would be to monitor and measure the                     statutes, regulations, and policy                     manuals that contain current policies
                                                  time spent in investigating a particular                directives, including:                                and procedures, consistent with these
                                                  type of provider, such as pharmacies.                      A. Section 1903(q) of the Social                   performance standards, for the
                                                     We believe that, in addition to                      Security Act, containing the basic                    investigation and (for those Units with
                                                  monitoring and measuring of case                        requirements for operation of a MFCU;                 prosecutorial authority) prosecution of
                                                  outcomes, the Units should consider                        B. Regulations for operation of a                  Medicaid fraud and patient abuse and
                                                  monitoring their own engagement in                      MFCU contained in 42 CFR part 1007;                   neglect.
                                                  non-case activities that would improve                     C. Grant administration requirements                  B. The Unit adheres to current
                                                  performance. These activities may                       at 45 CFR part 92 and Federal cost                    policies and procedures in its
                                                  include, for example, training and                      principles at 2 CFR part 225;                         operations.
                                                  outreach designed to increase referrals                    D. OIG policy transmittals as                         C. Procedures include a process for
                                                  of fraud and patient abuse and neglect;                 maintained on the OIG Web site; and                   referring cases, when appropriate, to
                                                  liaison with program integrity staff,                      E. Terms and conditions of the notice              Federal and State agencies. Referrals to
                                                  managed care organizations, and other                   of the grant award.                                   State agencies, including the State
                                                  law enforcement agencies to increase                                                                          Medicaid agency, should identify
                                                                                                          Performance Standard 2—Staffing
                                                  fraud referrals; and liaison on patient                                                                       whether further investigation or other
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                  abuse and neglect matters with licensing                  A Unit maintains reasonable staff                   administrative action is warranted, such
                                                  and certification agencies, the State                   levels and office locations in relation to            as the collection of overpayments or
                                                  Long Term Care Ombudsman, or adult                      the State’s Medicaid program                          suspension of payments.
                                                  protective services offices.                            expenditures and in accordance with                      D. Written guidelines and manuals are
                                                     As noted by the Association, OIG,                    staffing allocations approved in its                  readily available to all Unit staff, either
                                                  consistent with Performance Standard 7,                 budget. To determine whether a Unit                   online or in hard copy.
                                                  reviews statistical information provided                meets this standard, OIG will consider                   E. Policies and procedures address
                                                  by the MFCUs both for the purpose of                    the following performance indicators:                 training standards for Unit employees.


                                             VerDate Mar<15>2010   16:42 May 31, 2012   Jkt 226001   PO 00000   Frm 00151   Fmt 4703   Sfmt 4703   E:\FR\FM\01JNN1.SGM   01JNN1
                                                                                   Federal Register / Vol. 77, No. 106 / Friday, June 1, 2012 / Notices                                            32647

                                                  Performance Standard 4—Maintaining                      review the progress of cases and take                   F. The Unit has an information
                                                  Adequate Referrals                                      action as necessary to ensure that each               management system that allows for the
                                                     A Unit takes steps to maintain an                    stage of an investigation and                         monitoring and reporting of case
                                                  adequate volume and quality of referrals                prosecution is completed in an                        information, including the following:
                                                  from the State Medicaid agency and                      appropriate timeframe.                                  1. The number of cases opened and
                                                                                                            C. Delays to investigations and                     closed and the reason that cases are
                                                  other sources. To determine whether a
                                                                                                          prosecutions are limited to situations                closed.
                                                  Unit meets this standard, OIG will
                                                                                                          imposed by resource constraints or                      2. The length of time taken to
                                                  consider the following performance
                                                                                                          other exigencies.                                     determine whether to open a case
                                                  indicators:
                                                                                                          Performance Standard 6—Case Mix                       referred by the State Medicaid agency or
                                                     A. The Unit takes steps, such as the
                                                                                                                                                                other referring source.
                                                  development of operational protocols, to                  A Unit’s case mix, as practicable,                    3. The number, age, and types of cases
                                                  ensure that the State Medicaid agency,                  covers all significant provider types and             in the Unit’s inventory/docket.
                                                  managed care organizations, and other                   includes a balance of fraud and, where                  4. The number of referrals received by
                                                  agencies refer to the Unit all suspected                appropriate, patient abuse and neglect                the Unit and the number of referrals by
                                                  provider fraud cases. Consistent with 42                cases. To determine whether a Unit                    the Unit to other agencies.
                                                  CFR 1007.9(g), the Unit provides timely                 meets this standard, OIG will consider                  5. The dollar amount of overpayments
                                                  written notice to the State Medicaid                    the following performance indicators:                 identified.
                                                  agency when referred cases are accepted                   A. The Unit seeks to have a mix of                    6. The number of cases criminally
                                                  or declined for investigation.                          cases from all significant provider types             prosecuted by the Unit or referred to
                                                     B. The Unit provides periodic                        in the State.                                         others for prosecution, the number of
                                                  feedback to the State Medicaid agency                     B. For those States that rely                       individuals or entities charged, and the
                                                  and other referral sources on the                       substantially on managed care entities                number of pending prosecutions.
                                                  adequacy of both the volume and                         for the provision of Medicaid services,                 7. The number of criminal convictions
                                                  quality of its referrals.                               the Unit includes a commensurate                      and the number of civil judgments.
                                                     C. The Unit provides timely                          number of managed care cases in its mix                 8. The dollar amount of fines,
                                                  information to the State Medicaid or                    of cases.                                             penalties, and restitution ordered in a
                                                  other agency when the Medicaid or                         C. The Unit seeks to allocate resources             criminal case and the dollar amount of
                                                  other agency requests information on                    among provider types based on levels of               recoveries and the types of relief
                                                  the status of MFCU investigations,                      Medicaid expenditures or other risk                   obtained through civil judgments or
                                                  including when the Medicaid agency                      factors. Special Unit initiatives may                 prefiling settlements.
                                                  requests quarterly certification pursuant               focus on specific provider types.
                                                  to 42 CFR 455.23(d)(3)(ii).                               D. As part of its case mix, the Unit                Performance Standard 8—Cooperation
                                                     D. For those States in which the Unit                maintains a balance of fraud and patient              With Federal Authorities on Fraud
                                                  has original jurisdiction to investigate or             abuse and neglect cases for those States              Cases
                                                  prosecute patient abuse and neglect                     in which the Unit has original                           A Unit cooperates with OIG and other
                                                  cases, the Unit takes steps, such as the                jurisdiction to investigate or prosecute              Federal agencies in the investigation
                                                  development of operational protocols, to                patient abuse and neglect cases.                      and prosecution of Medicaid and other
                                                  ensure that pertinent agencies refer such                 E. As part of its case mix, the Unit                health care fraud. To determine whether
                                                  cases to the Unit, consistent with                      seeks to maintain, consistent with its                a Unit meets this standard, OIG will
                                                  patient confidentiality and consent.                    legal authorities, a balance of criminal              consider the following performance
                                                  Pertinent agencies vary by State but may                and civil fraud cases.                                indicators:
                                                  include licensing and certification                     Performance Standard 7—Maintaining                       A. The Unit communicates on a
                                                  agencies, the State Long Term Care                      Case Information                                      regular basis with OIG and other Federal
                                                  Ombudsman, and adult protective                            A Unit maintains case files in an                  agencies investigating or prosecuting
                                                  services offices.                                       effective manner and develops a case                  health care fraud in the State.
                                                     E. The Unit provides timely                          management system that allows efficient                  B. The Unit cooperates and, as
                                                  information, when requested, to those                   access to case information and other                  appropriate, coordinates with OIG’s
                                                  agencies identified in (D) above                        performance data. To determine                        Office of Investigations and other
                                                  regarding the status of referrals.                      whether a Unit meets this standard, OIG               Federal agencies on cases being pursued
                                                     F. The Unit takes steps, through                     will consider the following performance               jointly, cases involving the same
                                                  public outreach or other means, to                      indicators:                                           suspects or allegations, and cases that
                                                  encourage the public to refer cases to                     A. Reviews by supervisors are                      have been referred to the Unit by OIG
                                                  the Unit.                                               conducted periodically, consistent with               or another Federal agency.
                                                                                                          MFCU policies and procedures, and are                    C. The Unit makes available, to the
                                                  Performance Standard 5—Maintaining a
                                                                                                          noted in the case file.                               extent authorized by law and upon
                                                  Continuous Case Flow
                                                                                                             B. Case files include all relevant facts           request by Federal investigators and
                                                    A Unit takes steps to maintain a                      and information and justify the opening               prosecutors, all information in its
                                                  continuous case flow and to complete                    and closing of the cases.                             possession concerning provider fraud or
                                                  cases in an appropriate timeframe based                    C. Significant documents, such as                  fraud in the administration of the
                                                  on the complexity of the cases. To                      charging documents and settlement                     Medicaid program.
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                  determine whether a Unit meets this                     agreements, are included in the file.                    D. For cases that require the granting
                                                  standard, OIG will consider the                            D. Interview summaries are written                 of ‘‘extended jurisdiction’’ to investigate
                                                  following performance indicators:                       promptly, as defined by the Unit’s                    Medicare or other Federal health care
                                                    A. Each stage of an investigation and                 policies and procedures.                              fraud, the Unit seeks permission from
                                                  prosecution is completed in an                             E. The Unit has an information                     OIG or other relevant agencies under
                                                  appropriate timeframe.                                  management system that manages and                    procedures as set by those agencies.
                                                    B. Supervisors approve the opening                    tracks case information from initiation                  E. For cases that have civil fraud
                                                  and closing of all investigations and                   to resolution.                                        potential, the Unit investigates and


                                             VerDate Mar<15>2010   16:42 May 31, 2012   Jkt 226001   PO 00000   Frm 00152   Fmt 4703   Sfmt 4703   E:\FR\FM\01JNN1.SGM   01JNN1
                                                  32648                            Federal Register / Vol. 77, No. 106 / Friday, June 1, 2012 / Notices

                                                  prosecutes such cases under State                       the Centers for Medicare & Medicaid                   on the elements of successful fraud
                                                  authority or refers such cases to OIG or                Services (CMS).                                       referrals and receive training on the role
                                                  the U.S. Department of Justice.                           D. Consistent with Performance                      and responsibilities of the State
                                                     F. The Unit transmits to OIG, for                    Standard 4, the MOU establishes a                     Medicaid agency.
                                                  purposes of program exclusions under                    process to ensure the receipt of an                     Dated: May 29, 2012.
                                                  section 1128 of the Social Security Act,                adequate volume and quality of referrals
                                                                                                                                                                Daniel R. Levinson,
                                                  all pertinent information on MFCU                       to the Unit from the State Medicaid
                                                                                                                                                                Inspector General.
                                                  convictions within 30 days of                           agency.
                                                  sentencing, including charging                            E. The MOU incorporates by reference                [FR Doc. 2012–13332 Filed 5–31–12; 8:45 am]
                                                  documents, plea agreements, and                         the CMS Performance Standard for                      BILLING CODE 4152–01–P

                                                  sentencing orders.                                      Referrals of Suspected Fraud From a
                                                     G. The Unit reports qualifying cases to              State Agency to a Medicaid Fraud
                                                  the Healthcare Integrity & Protection                   Control Unit.                                         DEPARTMENT OF HEALTH AND
                                                  Databank, the National Practitioner Data                                                                      HUMAN SERVICES
                                                                                                          Performance Standard 11—Fiscal
                                                  Bank, or successor data bases.
                                                                                                          Control                                               National Institutes of Health
                                                  Performance Standard 9—Program                             A Unit exercises proper fiscal control
                                                  Recommendations                                                                                               Proposed Collection; Comment
                                                                                                          over Unit resources. To determine                     Request; CareerTrac
                                                    A Unit makes statutory or                             whether a Unit meets this standard, OIG
                                                  programmatic recommendations, when                      will consider the following performance               SUMMARY:   Under the provisions of
                                                  warranted, to the State government. To                  indicators:                                           Section 3506(c)(2)(A) of the Paperwork
                                                  determine whether a Unit meets this                        A. The Unit promptly submits to OIG                Reduction Act of 1995, the Fogarty
                                                  standard, OIG will consider the                         its preliminary budget estimates,                     International Center (FIC), National
                                                  following performance indicators:                       proposed budget, and Federal financial                Institute of Environmental Health
                                                    A. The Unit, when warranted and                       expenditure reports.                                  Sciences (NIEHS), including the
                                                  appropriate, makes statutory                               B. The Unit maintains an equipment                 Intramural Research and Training
                                                  recommendations to the State                            inventory that is updated regularly to                Award (IRTA) and Superfund Research
                                                  legislature to improve the operation of                 reflect all property under the Unit’s                 Program (SRP) within NIEHS, National
                                                  the Unit, including amendments to the                   control.                                              Institute of General Medical Science
                                                  enforcement provisions of the State                        C. The Unit maintains an effective                 (NIGMS), and National Cancer Institute
                                                  code.                                                   time and attendance system and                        (NCI), has submitted to the Office of
                                                    B. The Unit, when warranted and                       personnel activity records.                           Management and Budget (OMB) for
                                                  appropriate, makes other regulatory or                     D. The Unit applies generally                      review and approval. This is a renewal
                                                  administrative recommendations                          accepted accounting principles in its                 request. This proposed information
                                                  regarding program integrity issues to the               control of Unit funding.                              collection was previously published in
                                                  State Medicaid agency and to other                         E. The Unit employs a financial
                                                                                                                                                                the Federal Register on May 12, 2009
                                                  agencies responsible for Medicaid                       system in compliance with the
                                                                                                                                                                (74 FR 22172). No comments were
                                                  operations or funding. The Unit                         standards for financial management
                                                                                                                                                                received from that notification regarding
                                                  monitors actions taken by the State                     systems contained in 45 CFR 92.20.
                                                                                                                                                                the cost and hour burden estimates.
                                                  legislature and the State Medicaid or
                                                                                                          Performance Standard 12—Training
                                                  other agencies in response to                                                                                 Proposed Collection
                                                  recommendations.                                           A Unit conducts training that aids in
                                                                                                          the mission of the Unit. To determine                    Title: CareerTrac. Type of Information
                                                  Performance Standard 10—Agreement                       whether a Unit meets this standard, OIG               Collection Request: Revision (OMB NO.:
                                                  With Medicaid Agency                                    will consider the following performance               0925–0568 Expiration: September 30,
                                                     A Unit periodically reviews its                      indicators:                                           2012). Need and Use of Information
                                                  Memorandum of Understanding (MOU)                          A. The Unit maintains a training plan              Collection: This data collection system
                                                  with the State Medicaid agency to                       for each professional discipline that                 is being developed to track, evaluate
                                                  ensure that it reflects current practice,               includes an annual minimum number of                  and report short- and long-term outputs,
                                                  policy, and legal requirements. To                      training hours and that is at least as                outcomes and impacts of trainees
                                                  determine whether a Unit meets this                     stringent as required for professional                involved in health research training
                                                  standard, OIG will consider the                         certification.                                        programs—specifically tracking this for
                                                  following performance indicators:                          B. The Unit ensures that professional              at least ten years following training by
                                                     A. The MFCU documents that it has                    staff comply with their training plans                having Principal Investigators enter data
                                                  reviewed the MOU at least every 5                       and maintain records of their staff’s                 after trainees have completed the
                                                  years, and has renegotiated the MOU as                  compliance.                                           program. The data collection system
                                                  necessary, to ensure that it reflects                      C. Professional certifications are                 provides a streamlined, web-based
                                                  current practice, policy, and legal                     maintained for all staff, including those             application permitting principal
                                                  requirements.                                           that fulfill continuing education                     investigators to record career
                                                     B. The MOU meets current Federal                     requirements.                                         achievement progress by trainee on a
                                                  legal requirements as contained in law                     D. The Unit participates in MFCU-                  voluntary basis. FIC, NIEHS, NCI and
mstockstill on DSK4VPTVN1PROD with NOTICES




                                                  or regulation, including 42 CFR 455.21,                 related training, including training                  NIGMS management will use this data
                                                  ‘‘Cooperation with State Medicaid fraud                 offered by OIG and other MFCUs, as                    to monitor, evaluate and adjust grants to
                                                  control units,’’ and 42 CFR 455.23,                     such training is available and as funding             ensure desired outcomes are achieved,
                                                  ‘‘Suspension of payments in cases of                    permits.                                              comply with OMB Part requirements,
                                                  fraud.’’                                                   E. The Unit participates in cross-                 respond to congressional inquiries, and
                                                     C. The MOU is consistent with                        training with the fraud detection staff of            as a guide to inform future strategic and
                                                  current Federal and State policy,                       the State Medicaid agency. As part of                 management decisions regarding the
                                                  including any policies issued by OIG or                 such training, Unit staff provide training            grant program.


                                             VerDate Mar<15>2010   16:42 May 31, 2012   Jkt 226001   PO 00000   Frm 00153   Fmt 4703   Sfmt 4703   E:\FR\FM\01JNN1.SGM   01JNN1
